Case: 17-41258

Document: 00515342366

Page: 1

Date Filed: 03/12/2020

[1A{ #8 y £ '• (7 Of S ? ) ‘

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

March 12, 2020

*

MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 17-41258

Lorenzo Escudero v. Lorie Davis, Director
USDC No. 6:17-CV-577

Enclosed is a copy of the court's decision. The court has entered
judgment .under Fed. R. App. P. 36.
(However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
Fed. R. App. P. 39 through 41, and 5th Cir. R.s 35, 39, and 41 govern
costs, rehearings, and mandates.
5th Cir. R.s 35 and 40 require
you to attach to your petition for panel rehearing or rehearing en
banc an unmarked copy of the court's opinion or order.
Please
read carefully the Internal. Operating Procedures ‘(IOP's) following
Fed. R. App. P. 40 and 5th Cir. R. 35 for a discussion of when a
rehearing may be appropriate, the legal standards applied and
sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en ban'c.
■

•

Direct Criminal Appeals. 5th Cir. R. 41 provides that a motion for
a stay of mandate under Fed. R. App. P. 41 will not’ be granted
simply upon request.
The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court.
Otherwise, this court may deny
the motion and issue the mandate immediately.
«

Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under Fed. R. App. P. 41.
The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel.
Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order.
If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari.
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

O

Case: 17-41258

Document: 00515342366

Page: 2

Date Filed: 03/12/2020

Sincerely,
LYLE W. CAYCE, Clerk
A

-lie

*3

By:
Nancy F.Dolly,Deputy Clerk
Enclosure(s)
Mr. Lorenzo Escudero

Case: 17-41258

Document: 00515342363

Page: 1

Date Filed: 03/12/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 17-41258
LORENZO ESCUDERO,

FILED
March 12, 2020
Lyle W. Cayce
Clerk

Petitioner - Appellant
v.

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 6:17-CV-577
Before BARKSDALE, HIGGINSON, and DUNCAN, Circuit Judges.
PER CURIAM:*
Appellant Lorenzo Escudero challenges the dismissal without prejudice
of his claims alleging constitutional deficiencies related to both his conviction
and the conditions of his confinement. The district court dismissed his petition
because Escudero failed to comply with the Magistrate Judge’s order directing
him to specify whether his lawsuit was a petition for a writ of habeas corpus

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.
/

Case: 17-41258

Document: 00515342363

Page: 2

Date Filed: 03/12/2020

No. 17-41258
or a civil rights lawsuit. Despite the Magistrate Judge’s warning the case
would be dismissed if he failed to submit either a habeas form or a 42 U.S.C. §
1983 form within 30 days, Escudero responded only by denouncing the
deficiency order for making unconscionable and unconstitutional demands of
him.
Federal Rule of Appellate Procedure 28 provides, “[t]he appellant’s brief
must contain ... a statement of the issues presented for review.” Fed. R. App.
P. 28(a)(5). “Despite [a] policy of liberally construing briefs of pro se litigants
and applying less stringent standards to parties proceeding pro se than to
parties represented by counsel, pro se parties must still brief the issues and
reasonably comply with the standards of Federal Rule of Appellate Procedure
28.” Hodge v. E. Baton Rouge Par. Sheriff’s Office, 394 F. App’x 124, 126 (5th
Cir. 2010). When a party fails to brief a claim, the court need not consider this
claim. Id.-, Yohey v. Collins, 985 F.2d 222, 225 (5th Cir. 1993) (“Fed. R. App. P.
28(a)[(8)(a)] requires that the appellant’s argument contain the reasons he
deserves the requested relief ‘with citation[s] to the authorities, □ and parts of
the record relied on.’” (quoting Weaver v. Puckett, 896 F.2d 126, 128 (5th Cir.
1990))). Indeed, failing to identify an error in the district court’s legal analysis
is the same as not appealing the judgment. Brinkmann v. Dallas Cty. Deputy
Sheriff Abner, 813 F.2d 744, 748 (5th Cir. 1987).
Escudero makes no effort to contest the district court’s basis for
dismissal. His briefing does not mention the Magistrate Judge’s decision or the
order requiring him to fill out either a § 1983 or a habeas form. Even construing
his argument liberally, nothing in either the initial or the supplemental brief
can fairly be read as relating to the basis for the district court’s dismissal.
Because Escudero has not complied with Rule 28, his appeal fails. See generally
McGee v. Sturdivant, 628 F. App’x 317, 317-18 (5th Cir. 2016); Cooper v.
Wilkinson, 547 F. App’x 558, 559 (5th Cir. 2013).
2

v,: t, t'i.

Case: 17-41258

Document: 00515342363

Page: 3

Date Filed: 03/12/2020

No. 17-41258
Accordingly, the judgment of the district court is AFFIRMED.

3

Case 6:17-cv-00577-RC-KNM Document 17 Filed 12/07/17 Page 1 of 1 PagelD #: 92

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION

LORENZO ESCUDERO, #878388

§

VS.

§

CIVIL ACTION NO. 6:17cv577

DISTRICT ATTORNEY JACK SKEEN, JR., §
ET AL.
FINAL JUDGMENT
The court having considered Petitioner’s case and rendered its decision by opinion issued
this same date, it is hereby ORDERED that Petitioner take nothing by his case and that the lawsuit
is DISMISSED without prejudice.

So Ordered and Signed
Dec 7, 2017

Ron Clark, United States District Judge

Case 6:17-cv-00577-RC-KNM Document 16 Filed 12/07/17 Page 1 of 2 PagelD #: 90

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION

LORENZO ESCUDERO, #878388

§

VS.

§

CIVIL ACTION NO. 6:17cv577

DISTRICT ATTORNEY JACK SKEEN, JR., §
ET AL.
ORDER OF DISMISSAL
Petitioner Lorenzo Escudero, an inmate confined at the Neal Unit of the Texas prison
system, proceeding pro se and in forma pauperis, brings this lawsuit about a wide array of matters.
The cause of action was referred to United States Magistrate Judge K. Nicole Mitchell, who issued
a Report and Recommendation (Dkt. #13) concluding that the lawsuit should be dismissed without
prejudice for want of prosecution and failure to obey an order. Mr. Escudero has filed objections
(Dkt. #15).
The original lawsuit includes claims that are both habeas and civil rights in nature. Judge
Mitchell issued an order explaining the difference between the two types of cases. Mr. Escudero
was ordered to submit an amended pleading on the requisite form, and it was left up to him whether
to file a § 2254 form or a § 1983 form. Instead of complying with the order, Mr. Escudero filed
a response defiantly refusing to comply with the order. Judge Mitchell thus issued the Report and
Recommendation to dismiss the case. In his objections, Ms. Escudero once again refuses to obey
the court’s order. He presents a long discussion complaining about the legal system and the court.
1

Case 6:17-cv-00577-RC-KNM Document 16 Filed 12/07/17 Page 2 of 2 PagelD #: 91
jf

The lawsuit should be dismissed for want of prosecution and failure to obey an order. Fed. R.
Civ. P. 41(b).
The Report of the Magistrate Judge, which contains her proposed findings of fact and
recommendations for the disposition of such action, has been presented for consideration, and
having made a de novo review of the objections raised by Mr. Escudero to the Report, the court is
of the opinion that the findings and conclusions of the Magistrate Judge are correct, and Mr.
Escudero’s objections are without merit.

Therefore, the findings and conclusions of the

Magistrate Judge are adopted as the findings and conclusions of the court. It is accordingly
ORDERED that the lawsuit is DISMISSED without prejudice for want of prosecution
and failure to obey an order. Fed. R. Civ. P. 41(b). All motions not previously ruled on are
DENIED.

So Ordered and Signed
Dec 7, 2017

Ron Clark, United States District Judge

2

Case 6:17-cv-00577-RC-KNM Document 13 Filed 11/17/17 Page 1 of 3 PagelD #: 80

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION

LORENZO ESCUDERO, #878388

§

VS.

§

CIVIL ACTION NO. 6:17cv577

DISTRICT ATTORNEY JACK SKEEN, JR., §
ET AL.
REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Petitioner Lorenzo Escudero, an inmate confined at the Neal Unit of the Texas prison system,
proceeding pro se and in forma pauperis, brings this lawsuit concerning a wide array of claims. The
cause of action was referred for findings of fact, conclusions of law and recommendations for the
disposition of the case.
Escudero initiated the lawsuit by submitting a rambling petition on October 12, 2017. The
first eight claims appear to challenge his 1999 Smith County conviction for aggravated robbery. His
remaining claims appear to concern matters related to his confinement, particularly at the Lynaugh
Unit.
On October 13, 2017, the Court issued a Deficiency Order (Dkt. #6). The order discussed
the difference between a petition for a writ of habeas corpus and a civil rights complaint. Escudero
was advised that any complaints he may have concerning his conviction would likely be time-barred.
He was further advised that complaints about matters that occurred at the Lynaugh Unit would have
to be filed in the Western District of Texas, Pecos Division. With that in mind, Escudero was

G>

1

' /

Case 6:17-cv-00577-RC-KNM Document 13 Filed 11/17/17 Page 2 of 3 PagelD #: 81

ordered to submit an amended pleading on the requisite form, and it was left up to him whether to
file a § 2254 form or a § 1983 form. He was given thirty days from the receipt of the order to file
an amended pleading on the requisite form. He was warned that the lawsuit may be dismissed if he
did not timely comply with the order.
The Court has received an acknowledgment from Escudero indicating that he received the
order on October 16, 2017. His amended pleading was due on November 15, 2017. He has not
submitted the requisite amended pleading. Instead, on October 26, 2017, he filed a response
defiantly rejecting the order.
A district court may dismiss an action for failure to prosecute or to comply with any order
of the court. McCullough v. Lynaugh, 835 F.2d 1126 (5th Cir. 1988); Fed. R. Civ. P. 41(b).
Escudero has not complied with the Court’s order and refuses to do so; thus, the cause of action
should be dismissed.
Recommendation
It is recommended that the cause of action be dismissed without prejudice for want of
prosecution and failure to obey an order. Fed. R. Civ. P. 41(b).
Within fourteen (14) days after receipt of the magistrate judge’s report, any party may serve
and file written objections to the findings and recommendations contained in the report.
A party’s failure to file written objections to the findings, conclusions and recommendations
contained in this Report within fourteen days after being served with a copy shall bar that party from
de novo review by the district judge of those findings, conclusions and recommendations and, except
on grounds of plain error, from appellate review of unobjected-to factual findings and legal
conclusions accepted and adopted by the district court. Douglass v. United Services Auto. Ass ’n.
2

Case 6:17-cv-00577-RC-KNM Document 13 Filed 11/17/17 Page 3 of 3 PagelD #: 82

79 F.3d 1415, 1430 (5th Cir. 1996) (en banc), superseded by statute on other grounds, 28 U.S.C.
§ 636(b)(1) (extending the time to file objections from ten to fourteen days).

So ORDERED and SIGNED this 17th day of November, 2017.

UNITED states magistrate judge

3

Additional material
from this filing is
available in the
Clerk's Office.

